APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals
for the Eleventh Circuit
(February 14, 2020) .............................................................................................. App. 1
Order Denying Motion to Vacate in the United States District Court for the
Middle District of Florida Orlando Division
(October 18, 2019) ................................................................................................ App. 2
Memorandum of Law in Support of Motion in the United States District
Court for the Middle District of Florida Orlando Division
(January 4, 2018) .............................................................................................. App. 10
Supplemental Reply in the United States District Court for the Middle
District of Florida Orlando Division
(March 13, 2019) .............................................................................................. App. 29

i

Case: 19-14970

Date Filed: 02/14/2020

App. 1

Page: 1 of 1

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 1 of 8 PageID 2694
140

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

PEDRO PETE BENEVIDES,
Petitioner,
v.

Case No: 6:17-cv-1944-Orl-31LRH
(6:13-cr-234-Orl-31KRS)

UNITED STATES OF AMERICA,
Respondent.
/
ORDER
THIS CAUSE is before the Court on Petitioner Pedro Benevides’ Motion to Vacate,
Set Aside, or Correct Sentence (“Motion to Vacate,” Doc. 1) filed by counsel pursuant to
28 U.S.C. § 2255. Respondent filed a Response to the Motion to Vacate (“Response,” Doc.
11) in compliance with this Court’s instruction. Petitioner filed a Reply and Supplemental
Reply to the Response (Doc. Nos. 12, 15).
Petitioner asserts two grounds in his Motion to Vacate. For the following reasons,
the Motion to Vacate will be denied.
I. PROCEDURAL HISTORY
A grand jury charged Petitioner by Indictment with conspiracy to commit bank
fraud (Count One) in violation of 18 U.S.C. § 1349, bank fraud (Counts Two through Ten)
in violation of 18 U.S.C. §§ 1344 and 2, and making false statements (Counts Eleven
through Nineteen) in violation of 18 U.S.C. §§ 1014 and 2. (Criminal Case No. 6:13-cr-234-

App. 2

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 2 of 8 PageID 2695
141

Orl-31KRS, Doc. 1.)1 Petitioner entered a plea of guilty to Count One pursuant to a plea
agreement before Magistrate Judge Karla R. Spaulding. (Criminal Case, Doc. Nos. 58, 70,
71.) Magistrate Judge Spaulding filed a Report and Recommendation, recommending
that the plea be accepted and that Petitioner be adjudicated guilty of Count One.
(Criminal Case, Doc. 52.) The Court accepted the plea and adjudicated Petitioner guilty
of Count One. (Criminal Case, Doc. 59.) The Court sentenced Petitioner to a 108-month
term of imprisonment. (Criminal Case, Doc. 91). The Government dismissed the
remaining counts. (Id.). Petitioner appealed, and the Eleventh Circuit Court of Appeals
affirmed. (Criminal Case, Doc. 134.)
II. LEGAL STANDARD
The Supreme Court of the United States in Strickland v. Washington, 466 U.S. 668
(1984), established a two-part test for determining whether a convicted person is entitled
to relief on the ground that his counsel rendered ineffective assistance: (1) whether
counsel’s performance was deficient and “fell below an objective standard of
reasonableness”; and (2) whether the deficient performance prejudiced the defense. Id. at
687-88. The prejudice requirement of the Strickland inquiry is modified when the claim is
a challenge to a guilty plea based on ineffective assistance. See Hill v. Lockhart, 474 U.S.
52, 58-59 (1985). To satisfy the prejudice requirement in such claims, “the defendant must
show that there is a reasonable probability that, but for counsel’s errors, he would not
have pleaded guilty and would have insisted on going to trial.” Id. at 59.

1

Criminal Case No. 6:13-cr-234-Orl-31KRS will be referred to as “Criminal Case.”
2
App. 3

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 3 of 8 PageID 2696
142

A court must adhere to a strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance. Strickland, 466 at 689-90. “Thus, a
court deciding an actual ineffectiveness claim must judge the reasonableness of counsel’s
challenged conduct on the facts of the particular case, viewed as of the time of counsel’s
conduct.” Id. at 690; Gates v. Zant, 863 F.2d 1492, 1497 (11th Cir. 1989).
As observed by the Eleventh Circuit Court of Appeals, the test for ineffective
assistance of counsel:
has nothing to do with what the best lawyers would have done. Nor is the
test even what most good lawyers would have done. We ask only whether
some reasonable lawyer at the trial could have acted, in the circumstances,
as defense counsel acted at trial. Courts also should at the start presume
effectiveness and should always avoid second guessing with the benefit of
hindsight. Strickland encourages reviewing courts to allow lawyers broad
discretion to represent their clients by pursuing their own strategy. We are
not interested in grading lawyers’ performances; we are interested in
whether the adversarial process at trial, in fact, worked adequately.
White v. Singletary, 972 F.2d 1218, 1220-21 (11th Cir. 1992) (citation omitted). Under those
rules and presumptions, “the cases in which habeas petitioners can properly prevail on
the ground of ineffective assistance of counsel are few and far between.” Rogers v. Zant,
13 F.3d 384, 386 (11th Cir. 1994).
III. ANALYSIS
A.

Ground One

Petitioner asserts counsel rendered ineffective assistance by advising him to
stipulate to a forfeiture amount of $44,059,585. (Doc. 1 at 4.) In support of this ground,
Petitioner complains that counsel never advised him that “(1) the statutory maximum for
bank fraud is $1,000,000; (2) the stipulated forfeiture amount was an unconstitutionally

3
App. 4

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 4 of 8 PageID 2697
143

excessive fine; and (3) the forfeiture amount was not derived from the charged offenses,
but originated from a separate action for which [Petitioner] was never criminally
charged.” (Id.) According to Petitioner, he would not have entered the plea had he been
aware he would be forfeiting millions of dollars to which he was entitled. (Id.)
Petitioner has not established deficient performance or prejudice. The indictment
charged that the property to be forfeited equaled “$44,059,565, which represents the
proceeds of the conspiracy in Count One.” (Criminal Case, Doc. 1 at 14.) The plea
agreement indicated that the maximum penalty for Count One included “a fine of
$1,000,000, or twice the gross gain caused by the offense, or twice the gross loss caused
by the offense, whichever is greater. . . .” (Criminal Case, Doc. 58 at 1.) The plea agreement
further provided:
15.

Forfeiture of Assets

The defendant agrees to forfeit to the United States immediately and
voluntarily any and all assets and property, or portions thereof, subject to
forfeiture, pursuant to 18 U.S.C. § 982, whether in the possession or control
of the United States, defendant or defendant’s nominees. The assets to be
forfeited specifically include, but are not limited to, a money judgment in
the amount of $44,059,585.00, which amount represents the proceeds
obtained as a result of the offense charged in Count One. . . .
***
The defendant also hereby agrees to waive all constitutional, statutory and
procedural challenges in any manner (including direct appeal, habeas
corpus, or any other means) to any forfeiture carried out in accordance with
this Plea Agreement on any grounds, including that the forfeiture described
herein constitutes an excessive fine. . . .
(Criminal Case, Doc. 58 at 9, 15.) The factual basis for the plea stated inter alia that the
conspiracy resulted in the affected financial institutions providing Petitioner loans,
4
App. 5

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 5 of 8 PageID 2698
144

mortgages, or credit “totaling approximately $44,059,565, which is the sum of the
proceeds obtained as a result of the bank fraud conspiracy. . . .” (Id. at 26.)
At the plea hearing, the Court advised Petitioner that he could be fined $1 million
or the greater of twice the gross gain or loss caused by the offense. (Criminal Case, Doc.
70 at 14.) Petitioner affirmed that he had read the plea agreement and understood it. (Id.
at 13.) Petitioner further affirmed that he had reviewed the forfeiture provision of the plea
agreement. (Id. at 11.) The Court advised Petitioner that “an argument can be made under
the law that if the person is required to forfeit money or property and then is also
sentenced in a criminal case, that the combination of the two can violate certain
Constitutional, statutory rights, including the excessive fine clause of the Constitution.”
(Id. at 20-21.) The Court warned Petitioner that under the plea agreement, he would give
up his rights and arguments that could be made based on the extensive forfeiture and
criminal sentencing. (Id. at 21.) Nevertheless, Petitioner told the Court that he was willing
to give up those rights. (Id.) Petitioner further agreed that the factual basis, which
provided that the total amount of the gain from the conspiracy was $44,059,565, was true.
(Id. at 31-32.)
Based on Petitioner’s representations, when Petitioner entered the plea, he knew
the maximum fine that could be imposed, agreed that he had obtained $44,059,565 via
the charged conspiracy, agreed to the forfeiture amount of $44,059,565, and knew he was
giving up his right to argue that the forfeiture was an unconstitutionally excessive fine.
Petitioner’s representations constitute “a formidable barrier in any subsequent collateral
proceedings. Solemn declarations in open court carry a strong presumption of verity.”
5
App. 6

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 6 of 8 PageID 2699
145

Blackledge v. Allison, 431 U.S. 63, 73-74 (1977). Furthermore, the Eleventh Circuit has
affirmed a forfeiture that exceeded the statutory maximum fine by more than 400%. See
United States v. Holland, 722 F. App’x 919, 930 (11th Cir. 2018). Consequently, counsel was
not deficient, and a reasonable probability does not exist that Petitioner would have
proceeded to trial but for counsel’s purported deficient performance. Accordingly,
ground one is denied.
B.

Ground Two

Petitioner contends counsel rendered ineffective assistance by advising him that if
he entered the plea agreement and stipulated to the forfeiture amount, then he would
serve a minimal prison sentence and retain approximately $3,000,000 and a Lamborghini.
(Doc. 1 at 5.)
This claim is refuted by the record. At the plea hearing, the Court reviewed the
plea agreement with Petitioner and Petitioner affirmed he understood it. (Criminal Case,
Doc. 70 at 11-28.) Petitioner acknowledged that he knew his guideline range would not
be calculated until the Presentence Investigation Report was completed and that if his
guideline range or sentence was different from what he expected it to be, he would not
be allowed to withdraw his plea. (Id. at 26-27.) Moreover, nothing in the plea agreement
indicated that Petitioner would be allowed to retain $3,000,000 or a Lamborghini. After
reviewing the plea agreement with Petitioner, the Court asked Petitioner if there were
any other promises made in exchange for his plea. (Id. at 24.) Petitioner responded
negatively. (Id.) Petitioner, therefore, has not demonstrated that counsel was deficient or
that a reasonable probability exists that he would have proceeded to trial but for counsel’s
6
App. 7

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 7 of 8 PageID 2700
146

purported erroneous advice. Accordingly, ground two is denied.
Any of Petitioner’s allegations not specifically addressed herein have been found
to be without merit.
Accordingly, it is hereby ORDERED and ADJUDGED as follows:
1. Petitioner’s Motion to Vacate, Set Aside, or Correct Sentence (Doc. 1) is
DENIED, and this case is DISMISSED with prejudice.
2. The Clerk of the Court shall enter judgment accordingly and is directed to
close this case.
3. The Clerk of the Court is directed to file a copy of this Order in criminal case
number 6:13-cr-234-Orl-31KRS and to terminate the motions (Criminal
Case, Doc. 176) pending in that case.
4. This Court should grant an application for certificate of appealability only if
the Petitioner makes “a substantial showing of the denial of a constitutional

7
App. 8

Case
Case6:13-cr-00234-GAP-KRS
6:17-cv-01944-GAP-LRH Document
Document177
16 Filed 10/18/19 Page 8 of 8 PageID 2701
147

right.” 28 U.S.C. § 2253(c)(2). Petitioner has failed to make a substantial
showing of the denial of a constitutional right.2 Accordingly, a Certificate
of Appealability is DENIED in this case.
DONE and ORDERED in Orlando, Florida on October 18, 2019.

Copies furnished to:
Counsel of Record
Unrepresented Party
OrlP-1

“The district court must issue or deny a certificate of appealability when it enters
a final order adverse to the applicant.” Rules Governing Section 2255 Proceedings for the
United States District Courts, Rule 11(a).
2

8
App. 9

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 1 of 19 PageID 15

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
PEDRO PETE BENEVIDES,
Petitioner,

CASE NO: 17-cv-01944-GAP-KRS

vs.
UNITED STATES OF AMERICA,
Respondent.
__________________________________________/
MEMORANDUM OF LAW IN SUPPORT OF MOTION UNDER 28 U.S.C. § 2255 TO
VACATE, SET ASIDE, OR CORRECT SENTENCE BY A PERSON IN FEDERAL
CUSTODY
COMES NOW the Petitioner, Pedro Pete Benevides (“Benevides”), by and through
undersigned counsel, and hereby submits this memorandum of law in support of motion pursuant
to 28 U.S.C. § 2255 to vacate, set aside, or correct sentence by a person in federal custody. In
support, Benevides states:
JURISDICTION AND VENUE
Benevides is currently in custody of the United States Bureau of Prisons at Williamsburg
FCI under Register Number 27479-018 pursuant to the aforementioned judgment and
commitment.
Benevides’ motion is brought pursuant to 28 U.S.C. § 2255, et seq., and Article I, § 9,
Clause 2, of the Constitution. This Court has jurisdiction pursuant to 28 U.S.C. § 1331.
Benevides’ motion was filed on November 13, 2017, within one year of the November
14, 2016 denial of his petition for writ of certiorari. Therefore, Benevides’ motion is timely

1
App. 10

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 2 of 19 PageID 16

pursuant to the Antiterrorism and Effective Death Penalty Act. 28 U.S.C. § 2241(d)(1);
Kaufmann v. United States, 282 F. 3d 1336, 1338 (11th Cir. 2002) (“To begin with, like every
other circuit to have addressed the issue, this Court has held that where a prisoner does timely
petition for certiorari, § 2255(1)'s limitation period ‘begins to run when the Supreme Court
denies certiorari or issues a decision on the merits.’”) (citing Washington v. United States, 243 F.
3d 1299, 1300 (11th Cir. 2001)).
Benevides has filed no prior motion pursuant to § 2255 in this Court, or any other court
of competent jurisdiction.
Venue is proper in the United States District Court of the Middle District of Florida as the
judgment was entered by this Court.
BACKGROUND
A. Procedural History of Case
1. The 2008 Seizure of $41 Million
On October 31, 2008, the Government seized $41 million1 from various bank accounts,
including the accounts for all of the various companies Benevides owned and operated. Some of
the funds seized were wired into accounts by a person suspected of forming a Ponzi scheme, who
had entered into contracts to buy commercial properties owned by Benevides.
2. The Forfeiture Action for the $41 Million
On or about October 30, 2009, the Government filed a Verified Complaint for Forfeiture
In Rem against several assets. On January 20, 2010, the Government amended the Forfeiture
Complaint (Doc. 56)2, and attached, inter alia, a “Master Affidavit” filed by Noel F. Martinez,
Jr., a Deputy with the Osceola County Sheriff’s Office. The Master Affidavit outlined an
elaborate, international Ponzi/Pyramid scheme alleged allegedly carried out by Benevides and
1
2

Where possible, Benevides will use round numbers.
Entries relate to case number 6: 13-cr-234-Orl-31KRS.
2
App. 11

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 3 of 19 PageID 17

Daniel Roho Filho, through the use of companies they owned and operated. Mr. Martinez
explained he believed that funds located in bank accounts controlled by either Benevides or Mr.
Filho were the product of the Ponzi scheme and wire fraud. (Doc. 56-4 at 39). At the same time,
however, Mr. Martinez asserted that the funds in some of the bank accounts opened and
controlled by either Benevides and/or Mr. Filho were previously seized by federal agents based
on a drug and money laundering investigation out of the District of Arizona. (Doc. 56-4 at 28).
Thus, the Master Affidavit alleged a wide-range of criminal activity and failed to clearly specify
whether Mr. Martinez believed the contents of the bank accounts were the product of a Ponzi
scheme or a drug and money laundering scheme.

The Government used the sweeping

allegations contained in Mr. Martinez’s affidavit to justify seizing approximately $41 million of
Benevides’ money. Benevides and his various companies, from which the assets were taken,
filed claims in the forfeiture proceedings. The forfeiture action was ultimately resolved six years
later as part of the Plea Agreement in this case. See infra. No charges were ever filed against Mr.
Benevides in connection with the alleged Ponzi scheme.
3. The False Drug Charges
Benevides was first arrested on September 16, 2009 in Orlando, Florida pursuant to a
Northern District of Florida indictment on an alleged drug and money laundering scheme.
Benevides was arrested in the Middle District of Florida, where he resided, and had a bond
hearing. During the bond proceedings, the Government opposed Benevides’ release. To support
its position, the Government offered the testimony of Special Agent Keith Humphry’s of the
DEA in Pensacola, Florida. Agent Humphrys was the Government’s sole witness. Agent
Humphrys testified that, through his interview of two other defendants, he learned that
Benevides was the “financial backer” for the drug conspiracy and the person who initiated the
plan to smuggle cocaine into the United States. Critically, Agent Humphrys also testified that he
was aware of Daniel Rojo, who was a target of a DEA, IRA and Customs investigation out of
3
App. 12

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 4 of 19 PageID 18

Phoenix, Arizona. Agent Humphrys explained the Government seized $24 million from bank
accounts owned and controlled by Mr. Filo, and $16 million from accounts owned and controlled
by Benevides, because the funds came from identified “Mexican drug traffickers” (This is the
same $41 million that Agent Martinez later claimed were proceeds of a Ponzi scheme).
Despite Agent Humphreys’ testimony, Judge Spaulding granted Benevides’ bond.
Undeterred, the Government filed an appeal to the Northern District of Florida. In its appeal, the
Government asserted, inter alia, that it had established that Benevides is a multimillionaire who
has recently had approximately $16 million in bank account proceeds seized by the United States
and that he was a risk of flight. Relying on Agent Humphrys’ testimony, the Government stated
Benevides’ bank accounts were seized because they contained drug money, which was in direct
conflict with what the same government was telling the district court in the forfeiture case.
Notwithstanding its previous passion for its argument and position, the Government
voluntarily dismissed the Indictment in the drug case on February 11, 2010. In its motion to
dismiss, the Government informed the district court that the witnesses had admitted to lying to
the Government about Benevides and that it did not have sufficient evidence to sustain his
conviction.
Despite the fact that the Government held Benevides for five months on false drug
charges, despite that it argued for the denial of his bond, and despite that it admitted its case was
premised on lies and deceit, the Government was steadfast in its pursuit of Benevides. At the
same time the Government moved to dismiss the false drug charges, it urged the district court not
to release Benevides because the DHS had filed an immigration detainer. Benevides was then
held in custody of the Immigration and Naturalization Service (“INS”) for another three months,
based upon the false assertions of the DHS.

4
App. 13

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 5 of 19 PageID 19

4. The Wrongful Detention by INS
Benevides was an American citizen at the time the DHS arranged for an immigration
hold to be placed on him. Astoundingly, Benevides had the papers to prove his citizenship on
him at the time of his arrest on the false drug charges.
The immigration hold was eventually lifted after the immigration court found that the
“notice to appear was improvidently issued by DHS.” However, Benevides was held in INS
custody from February 11, 2010 until May 11, 2010.
Thus, following his September 17, 2009 arrest, Benevides was wrongfully held in federal
custody – again – for approximately eight months.
5. The Wrongful Lake County Arrest
On September 16, 2010, after just being released from INS, Benevides was again arrested
and held in custody on charges orchestrated by the DHS. Specifically, the DHS task force agent
arranged for Benevides to be arrested by the Sheriff of Lake County, Florida for the alleged theft
of an automobile. The Lake County case concerned a car the Benevides leased, but the lease
went into default because Benevides was being held in federal custody. The State Attorney’s
Office determined that the matter was civil in nature and the case was dismissed.
6. The Petit Theft Case
On September 16, 2011, Benevides was again arrested on charges orchestrated by the
DHS.

This time, the DHS arrested Benevides on thirty-year old bad check charges from

Massachusetts after his arrival home from a trip to Portugal.
Upon his arrest, Benevides was released by the Orange County Circuit Court when it
determined that the thirty year old warrant was for a non-extraditable charges.
Nevertheless, the DHS arranged for Massachusetts to add an extraditable offense, an
alleged failure to appear. DHS agents then arrested Benevides at a child custody hearing.

5
App. 14

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 6 of 19 PageID 20

Benevides then remained incarcerated for approximately 45 days until restitution was paid and
the Massachusetts case dismissed.
7. The Instant Case
On September 18, 2013, the Government filed a separate nineteen-count indictment
charging Benevides with (1) conspiring to commit bank fraud; (2) bank fraud; and (3) making
false statements to federally-insured financial institutions. (Doc. 1 at 1-9). The victims of the
alleged scheme to defraud were: First Commercial Bank, M&I Bank, Orion Bank, Community
Bank of Florida, Bank of Wyoming, Washington Mutual Bank, JPMorgan Chase Bank, and
Whitney National Bank. (Doc. 1 at 1, 5-6).
On July 14, 2014, pursuant to a plea agreement, Benevides agreed to plead guilty to the
conspiracy count in a plea agreement. (Doc. 48 at 28). Pursuant to part of the plea agreement,
Benevides agreed “The assets to be forfeited specifically include, but are not limited to, a money
judgment in the amount of $44,059,585, which amount represents the proceeds obtained as a
result of the offense charged in Count One, including all relevant conduct as defined in United
State Sentencing Guidelines §1B1.3(a).” (Doc. 58 at 9). Moreover, Benevides agreed to consent
to the forfeiture of the previously seized $41 million, which was the subject of the alleged, but
never charged Ponzi/drug conspiracy schemes. The Government agreed to credit the $41 million
against the agreed to $44 million forfeiture amount in this case. Accordingly, by having
Benevides agree to the above, the Government inextricably tied this case to an unrelated matter
in order to end its six-year long effort keep the $41 million that it seized from Benevides in 2008,
prior to any of the losses in this case.3
3

At sentencing, the Government admitted that it could not have otherwise forfeited the $41
million in this case:
We could not forfeit those funds in this case because we could not prove by a
preponderance of the evidence that those funds were bank fraud proceeds.
Otherwise, we would have forfeited them in this case.
6
App. 15

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 7 of 19 PageID 21

On July 15, 2014, a magistrate judge conducted a change of plea hearing. (Doc. 49). The
district court entered an order on July 21, 2014, adopting the magistrate judge’s report and
recommendation and accepting the guilty plea. (Doc. 59).
On August 26, 2014, the district court entered an order granting the Government’s
motion for forfeiture of forfeiture money judgment. (Doc. 61).
At sentencing, Benevides argued, in part, that he knew false documentation concerning
his income and assets was submitted in connection with the multiple loans he obtained.
Nevertheless, Benevides submitted that all or most of the losses occurred after he was
wrongfully arrested on the false drug charges and that the losses would not have occurred but for
the Government’s continuous action. Specifically, Benevides argued that his unlawful arrest and
detention virtually destroyed his businesses and legitimate income stream and, therefore,
rendered him unable to pay the loans in question. Moreover, each time Benevides got his head
above water after an arrest, he was promptly re-arrested and thus unable to recover financially.
Benevides argued that the government created the losses that the financial institution were facing
in the case.
The district court sentenced Benevides to 108 months of incarceration to be followed by
three years of supervised release. (Doc. 98 at 19-20).

And I think Mr. Greene has somehow confused the money judgment, which is a
monetary judgment against the defendant for $44 million, which represents the
proceeds he obtained from the bank fraud somehow with the Ponzi scheme
money. And I just wanted the Court to be aware, two totally separate pots of
money.
We did agree in the Plea Agreement to allow the defendant to receive credit for
the money that he forfeited in the civil forfeiture case, to credit against the
forfeiture money judgment. So that’s a huge amount. I think, as I said, its about
39.2 million that we have forfeited that will be credited against the $44 million
money judgment. So Benevides is getting a huge benefit as a result of that
agreement by the government.
(Doc. 85 at 270-271)
7
App. 16

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 8 of 19 PageID 22

On April 28, 2015, Benevides filed a notice of appeal. (Doc. 94).
On July 9, 2015, the district court ordered Benevides pay $10 million in restitution. (Doc.
127). The restitution amount was based on the amount of loss actually suffered by the respective
banks after it recovered a significant amount of money from foreclosing on assets subject to the
loans. (Doc. 128 at 7-8). The district court declined to offset the ordered restitution with the
forfeiture judgement. (Doc. 128 at 24).
The Circuit Court of Appeal affirmed Benevides’ Judgment and Sentence on May 27,
2016. Benevides v. United States, 650 Fed. Appx. 723 (11th Cir. 2016).
On November 14, 2016, the United States Supreme Court denied Benevides’ Petition for
Certiorari.
Benevides filed a motion under 28 U.S.C. § 2255 to vacate, set aside, or correct sentence
by a person in federal custody. Benevides asserted two grounds. First, trial counsel provided
ineffective assistance of counsel by advising Benevides to stipulate to a forfeiture amount of $44
million.

Second, trial counsel provided ineffective assistance of counsel when he advised

Benevides that if he entered the plea agreement and stipulated to the forfeiture amount than he
would serve a minimal prison sentence and still retain approximately $3 million4 and a
Lamborghini.

4

Benevides understood that he would receive the $3 million for the following reason:
The government seized 40,288,151 according to what’s listed in the plea.
I was told by Mr. Greene that the $3,771,414 credit that I was to get back was
actually interest earned on the moneys seized from 2008 till 2104 that’s how he
claimed that the government came up with the 44,059,565 listed in the indictment.
He also told me that the government legally could not keep any interest earned
since they did not own the money until July 14, 2014.
If you add up the 3,771,414 and the 40,288,151 it will come out to the same
amount listed in the indictment.
8
App. 17

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 9 of 19 PageID 23

Benevides is presently incarcerated at the Federal Correctional Institution in
Williamsburg.
B. Representation of Attorney Charles Greene Regarding the Plea Agreement
Attorney Charles Greene represented Benevides in case number 6:13-cr-234-Orl-31KRS.
After receiving the proposed plea agreement, Benevides did not agree with several of its
provisions including the forfeiture and restitution provisions. (Exhibit “1”: Benevides’ Original
Plea Offer Notes). When Benevides expressed his displeasure, Attorney Greene counseled
Benevides that he should agree to the forfeiture amount of $44 million because the amount
equated to the alleged “intended loss” in the case and was a reasonable fine amount. Attorney
Greene also advised Benevides that he would, under the agreement, ultimately be able to retain
$3 million plus a Lamborghini. (Exhibit “2”: Attorney Greene’s Notes). Attorney Greene
stressed the primary benefit of the agreement was that the Government agreed not to pursue
additional charges. (Exhibit “3”: Attorney Greene’s June 12, 2015 Letter). In addition, Mr.
Greene advised Benevides that he would serve a minimal amount of time in prison. (Exhibit “4”:
Attorney Greene’s September 25, 2014 Email). Although Benevides remained reluctant to enter
the terms of the plea agreement because he would be allowing the Government to keep millions
of his legitimately earned money, Benevides eventually accepted Attorney Greene’s advice and
entered the plea agreement. (Exhibit “5”: July 10, 2014 Email to Attorney Greene) (Exhibit “6”:
Attorney Greene’s July 14, 2014 Email).
C. Unexpected Results of the Plea Agreement
Benevides was sentenced to a substantial prison sentence of 108 months. Benevides not
permitted to keep $3 million and a Lamborghini.

9
App. 18

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 10 of 19 PageID 24

I.

BENEVIDES WAS DENIED HIS SIXTH AMENDMENT RIGHT TO COUNSEL.
Under 28 U.S.C. § 2255, a defendant may move to vacate, set aside, or correct sentence if

the sentence “was imposed in violation of the Constitution or laws of the United States[]…or is
otherwise subject to collateral attack[.]” 28 U.S.C. § 2255(a). Relief under 28 U.S.C. § 2255 is
reserved for transgressions of constitutional rights that could not have been raised on a direct
appeal but would result in a complete miscarriage of justice. Lynn v. United States, 365 F. 3d
1225, 1232 (11th Cir. 2004). A claim of ineffective assistance of counsel gives rise to such a
cognizable constitutional issue under 28 U.S.C. § 2255. United States v. Cronic, 466 U.S. 648,
667 (1984); Massaro v. United States, 538 U.S. 500 (2003).
The Sixth Amendment gives each defendant in a criminal prosecution the right to the
effective assistance of counsel. U.S. Const. amend. VI. The effective assistance of counsel has
been described as diligent, competent legal representation that meets the minimum standards of
due care expected of an attorney at every critical stage of a criminal case. Strickland v.
Washington, 466 U.S. 668, 687-88 (1984). The fundamental right to the effective assistance of
counsel is recognized not for its own sake, but because of the effect it has on the ability of the
accused to receive due process of law in an adversarial system of justice. Cronic, 466 U.S. at
658.
The United States Supreme Court has held that “[t]he benchmark of judging any claim of
ineffectiveness must be whether counsel’s conduct so undermined the proper functioning of the
adversarial process that the trial [court] cannot be relied on having produced a just result.”
Strickland, 466 U.S. at 686.
Under the Strickland standard, ineffective assistance of counsel is made out when the
defendant shows that (1) trial counsel’s performance was deficient in that he or she made errors

10
App. 19

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 11 of 19 PageID 25

so egregious that they failed to function as the “counsel guaranteed the defendant by the Sixth
Amendment,” and (2) the deficient performance prejudiced the defendant enough to deprive him
of due process of law. Id. at 687. A court deciding a claim of ineffective assistance of counsel
must judge the reasonableness of counsel's challenged conduct on the facts of the particular case,
viewed as of the time of counsel's conduct. Id. at 690.
The court must then determine whether, in light of all the circumstances, the
identified acts or omissions were outside the wide range of professionally
competent assistance. In making that determination, the court should keep in mind
that counsel's function, as elaborated in prevailing professional norms, is to make
the adversarial testing process work in the particular case.
Strickland, at 690. A convicted defendant making a claim of ineffective assistance must identify
the acts or omissions of counsel that were not the result of reasonable professional judgment. Id.
In the plea context, the Strickland test is slightly modified. To prove that counsel's
ineffective assistance was prejudicial, a defendant must show that “but for counsel's errors,
[the defendant] would not have pleaded guilty and would have insisted on going to trial." Hill v.
Lockhart, 474 U.S. 52, 59 (1985).
For instance, in Lee v. United States, 137 S. Ct. 1958 (2017), the defendant pled guilty to
possessing ecstasy with intent to distribute. The defendant was a lawful permanent resident, and
his attorney assured him that the government would not deport him if he pled guilty. Id. at
1962.

However,

the

defendant

was

subject

to

mandatory

deportation

from

his

conviction. Id. The Supreme Court held that the defendant had demonstrated prejudice from his
counsel's incorrect advice. Id. at 1969. The Supreme Court concluded that the defendant
demonstrated a reasonable probability that he would have rejected the plea had he known that it
would lead to mandatory deportation. Id. at 1967. The defendant asked his attorney repeatedly
about whether there was any risk of deportation from his proceedings, and both the defendant

11
App. 20

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 12 of 19 PageID 26

and his attorney testified at the evidentiary hearing that Lee would have gone to trial if he had
known about the deportation consequences. Id. at 1967–68. Moreover, when the judge warned at
the plea colloquy that a conviction could result in a deportation, and asked whether that affected
the defendant’s decision to plead guilty, the defendant answered “Yes, Your Honor.” Id. at 1968.
When the court inquired about how it affected his decision, the defendant turned to his counsel
for advice. Id. Only when the defendant’s counsel assured him that the judge's statement was a
“standard warning” was the defendant willing to proceed to plead guilty. Id.
The Supreme Court recognized in Lee that a defendant's right to remain in the United
States may be more important than any potential jail sentence. Id. In the defendant’s case, the
Supreme Court stated that it was not irrational for him to reject the plea offer, despite the strong
case against him, since deportation was the determinative issue, the defendant had strong
connections to the United States and no other country, and the consequences for proceeding to
trial were not markedly harsher than pleading. Id. at 1968–69. Thus, because the defendant’s
claim, that he would not have accepted a plea had he known it would lead to deportation, was
backed by substantial and uncontroverted evidence, the Supreme Court concluded that the
defendant demonstrated a reasonable probability that, but for his counsel's errors, he would not
have pleaded guilty and would have insisted on going to trial. Id. at 1969.
1. Attorney Greene provided ineffective assistance of counsel by advising Benevides to
stipulate to a forfeiture amount of $44 million.
Attorney Greene advised Benevides to accept the plea agreement and stipulate to the
forfeiture amount of $44 million. Attorney Greene, however, never advised Benevides that (1)
the statutory maximum for bank fraud is $1 million; (2) the stipulated forfeiture amount was
unconstitutionally excessive fine; and (3) the forfeiture amount was not derived from the charged
offenses, but originated from a separate action for which Benevides was never criminal charged
12
App. 21

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 13 of 19 PageID 27

or convicted. Benevides would not have entered a plea had he been aware that he was forfeiting
millions of dollars to which he was entitled.
The Eighth Amendment to the United States Constitution prohibits the imposition of
“excessive fines.” U.S. Const. amend. VIII. The Supreme Court has interpreted the word “fine”
“‘to mean a payment to a sovereign as punishment for some offense.’” United States v.
Bajakajian, 524 U.S. 321, 327 (1998) (quoting Browning-Ferris Indus. of Vt., Inc. v. Kelco
Disposal, Inc., 492 U.S. 257, 265 (1989)). “Forfeitures-payments,” the Supreme Court explained,
“are thus ‘fines’ if they constitute punishment for an offense.” Bajakajian, 524 U.S. at 328.
“The touchstone of the constitutional inquiry under the Excessive Fines Clause is the
principle of proportionality: The amount of forfeiture must bear some relationship to the gravity
of the offense that it is designed to punish.” Id. at 334. The Bajakajian Court explained that in
order for a fine to be excessive, the imposed fine must be grossly disproportional to the gravity
of the criminal offense. Id. at 336. The Court set forth factors to determine the gravity of a
defendant’s criminal offense. Id. at 337. First, it looked at the “essence” of the defendant’s
underlying criminal offense. Id. at 338. Next, it looked to whether the defendant’s “violation
was unrelated to any other illegal activities.” Id. Third, it considered the maximum sentence and
fine that “could have been imposed” under the Sentencing Guidelines. Id. Fourth, the Court
looked to “the other penalties that the Legislature has authorized” under the statute. Id. at 339
n.14, 109 S. Ct. at 2038 n.14. Fifth, the Court considered whether the “harm that [the defendant]
caused was . . . minimal.” Id., 109 S. Ct. at 2039; see United States v. Browne, 505 F.3d 1229,
1282 (11th Cir. 2007) (citing Bajakajian, 524 U.S. 337-40, 118 S. Ct. at 2038-39) (setting forth

13
App. 22

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 14 of 19 PageID 28

factors for consideration)5 . This Court has explained that the “murkiness of these factors
demonstrates the inherent difficulty of monetizing the gravity of an offense.” United States v.
Chaplin’s, Inc., 646 F.3d 846, 852 (11th Cir. 2001). It is a generally acceptable principle that
forfeitures in excess of the statutory maximum will receive closer scrutiny, “[a] forfeiture far in
excess of the statutory fine range … is likely to violate the Excessive Fine Clause.” United States
v. 817 N.E. 29th Drive, Wilton Manors, Fla., 175 F. 3d 1304, 1309 n. 9 (11th Cir. 1999).
For instance, in Bajakajian, the Supreme Court held that forfeiture of an entire monetary
amount involved in a simple reporting offense was an excessive fine under the Eighth
Amendment. There, the defendant, who had a distrust for the government, was arrested in a Los
Angeles airport while attempting to board a flight to Italy with $357,144 in undeclared cash
hidden in his luggage. 524 U.S. at 24-26. He was arrested and charged with, inter alia, failure to
report that he was transporting more than $10,000 outside the United States and one count which
sought forfeiture of that money. Id. at 325. He pleaded guilty to the reporting offense and a
bench trial was held on the forfeiture count. Id. The district court held that although the entire
sum was involved in the offense and was thus subject to forfeiture, it would have been an
excessive fine to forfeit that entire amount. Id. at 326. Instead, the district court determined that
only $15,000 of the $357,144 should be forfeited. Id. The government appealed, seeking full
forfeiture of the defendant’s currency. Id. The Ninth Circuit and the Supreme Court subsequently
affirmed. Id. at 327, 118 S. Ct. at 2033.
5

The factors outlined by the Browne Court are as follows: “(1) whether the defendant falls into
the class of persons at whom the criminal statute was principally directed; (2) other penalties
authorized by the legislature (or the Sentencing Commission); and (3) the harm caused by the
defendant.” 505 F.3d at 1281. This Court has explained that these factors are not, however,
intended to be “an exclusive checklist.” Chaplin’s, Inc., 646 F.3d at 851 n.18 (citing United
States v. 427 and 429 Hall St., Montgomery, Montgomery Cnty., Ala., 74 F.3d 1165, 1172 (11th
Cir. 1996)). “The relevant factors will necessarily vary from case to case.” Id. (internal quotation
and citation omitted).
14
App. 23

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 15 of 19 PageID 29

First, looking at the essence of the crime, the Bajakajian Court noted that the defendant’s
crime “was solely a reporting offense.” Id. at 337. The Court also looked for a connection to
other criminal activity, noting that the money involved in the reporting offense “was unrelated to
any other illegal activities.” Id. at 338. The Supreme Court explained that the reporting statute
“does not fit into the class of persons for whom the statute was principally designed: He is not a
money launderer, a drug trafficker, or a tax evader.” Id. Furthermore, the Court explained that
the maximum fine that could have been imposed was $5,000, which “confirm[s] minimal level of
culpability.” Id.
Moreover, the Supreme Court noted that the “harm that [the defendant] caused was also
minimal.” Id. at 339. The Court reasoned that the failure to report “deprived” the government
“only of the information that $357,144 had left the country.” Id. at 323. The Court explained,
“There was no fraud on the United States, and respondent caused no loss to the public fisc.” Id.
at 339. Upholding the district court’s decision ordering the forfeiture of only $15,000 and, in
turn, rejecting the government’s contentions, the Court held that forfeiture of the entire $357,144
would have been grossly disproportionate to the crimes committed. Id. at 344.
For the offense of conspiracy to commit bank fraud, Benevides faced a sentence of up to
30 years in prison. Pursuant to the Guidelines, the sentencing range was between 108 months to
135 months. Benevides could be ordered to pay a fine of up to $1 million per cout, with a
Guidelines range of $15,000 to $1,000,000. Both in effect and in Congress’s judgment as
expressed through the applicable statutory penalties, Benevides’ crime was extensive and grave.
Nevertheless, there is a tremendous disconnect between the agreed to forfeiture amount of $44
million and the maximum statutory find of no more than $1 million (with a Guidelines range
beginning as low as $15,000). In terms of statistics, the agreed to forfeiture amount was more

15
App. 24

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 16 of 19 PageID 30

than 44 times greater than the maximum fine allowable and almost 3,000 times greater than the
lower-end of the Guidelines range.

Such a disproportionate forfeiture amount is not

constitutionally permissible. See, e.g., United States v. Beecroft, 825 F. 3d 991 (9th Cir. 2016)
(holding that a forfeiture amount 100 times greater than maximum fine would be
unconstitutionally excessive)6; $100,348.000 in U.S. Currency, 354 F. 3d at 1123 (holding that a
forfeiture amount between 3 and 20 times greater than maximum fine would be
unconstitutionally excessive); Thurman Street, 164 F. 3d at 1198 (rejecting forfeiture amount
“more than 40 times the maximum fine permitted under the Guidelines”).
There can be no reasonable explanation for counsel to have Benevides agree to an
unconstitutional forfeiture amount. Although the unconstitutional excessive forfeiture amount
does not change whether Benevides is guilty of the offense, as in Lee, it would have been critical
to his decision in entering a plea of guilty. Had Benevides known that the $44 million forfeiture
amount was not a reasonable fine amount, he would not have entered into the plea agreement and

More specifically, in Beecroft, the defendant took part in a multi-million dollar residential
mortgage-fraud scheme. The defendant participated extensively in the conspiracy for four years
by completing loans, handling false information, and directing to whom to false the fraudulent
third-party disbursements would be made. The government believed that she made in excess of
$400,000 from commissions and fees generated during the scheme. The scheme involved more
than 400 straw-buyer transactions and 227 properties purchase for $107 million. After a jury
trial, the defendant was convicted of conspiracy to commit bank, fail, and wire fraud and two
subsidiary counts of wire fraud and mail fraud. At sentencing, the district court ordered a
criminal monetary forfeiture order against the defendant in the sum of $107 million for the
conspiracy count and additional forfeiture amounts totally $1.42 million for the remaining four
counts. The district court ordered the defendant to pay restitution in the amount equal to the
proven loss amount, $2,275,025. On appeal, the defendant challenged, in part, the $107
forfeiture amount. After noting the fine range of $20,000 to $1 million for the conspiracy to
commit bank, fail, and wire fraud conviction, the appellate court concluded that the forfeiture
amount was unconstitutionally excessive because it was more than 100 times the maximum
statutory fine and 5,000 times the lower-end of the Guideline range. The appellate court noted
that the have rejected forfeiture orders with far less disparity.

6

16
App. 25

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 17 of 19 PageID 31

insisted on a trial so that he could, even if he lost at trial, prevent the forfeiture of millions of his
legitimately earned money.
This Court should permit Benevides to withdraw his plea. At the least, this Court should
grant Benevides the opportunity to fully develop his claims at an evidentiary hearing.
2. Attorney Greene provided ineffective assistance of counsel when he advised
Benevides that if he entered the plea agreement and stipulated to the forfeiture
amount than he would serve a minimal prison sentence and still retain $3 million
and a Lamborghini.
Benevides entered the plea agreement with the stipulated forfeiture amount after being
advised by Attorney Greene that he would serve a minimal prison sentence and still be able to
retain $3 million and a Lamborghini.

The information provided by Attorney Greene was

inaccurate. After he entered the plea, Benevides was not permitted to retain $3 million and a
Lamborghini. Moreover, this Court sentenced Benevides to a substantial prison sentence of 108
months.
Being able to retain some of his legitimately earned assets was critical to his decision in
entering the plea agreement. Benevides would not have entered a plea had he been aware that he
would be sentenced to a substantial prison sentenced and would not be able to retain $3 million
and a Lamborghini.
This Court should permit Benevides to withdraw his plea. At the least, this Court should
grant Benevides the opportunity to fully develop his claims at an evidentiary hearing.
CONCLUSION
Benevides is entitled to relief. This Court should permit Benevides to withdraw his plea.
At the least, this Court should grant Benevides the opportunity to fully develop his claims at an
evidentiary hearing.

17
App. 26

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 18 of 19 PageID 32

DATED this 4th day of January, 2018.
Respectfully submitted,
/s/ Matthew R. McLain
Matthew R. McLain, Esquire
Florida Bar No. 98018
MCLAIN LAW, P.A.
2170 West State Road 434
Suite 216
Longwood, Florida 32779
(T) 407.792.3930
(F) 407.613.2757
Matthew@McLainLaw.com
Counsel for Petitioner
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been furnished to
opposing counsel via email on this 4th day of January, 2018.
/s/ Matthew R. McLain
Matthew R. McLain, Esquire

18
App. 27

Case 6:17-cv-01944-GAP-LRH Document 3 Filed 01/04/18 Page 19 of 19 PageID 33

App. 28

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 1 of 13 PageID 127

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
PEDRO PETE BENEVIDES,
Petitioner,

CASE NO: 17-cv-01944-GAP-KRS

vs.
UNITED STATES OF AMERICA,
Respondent.
__________________________________________/
SUPPLEMENTAL REPLY
COMES NOW Petitioner, Pedro Pete Benevides (“Benevides”), by and through
undersigned counsel, and hereby submits this Supplemental Reply. In support, Benevides states:
1.

On January 16, 2019, this Court provided Benevides 60 days to file a

supplemental reply to the response in opposition to motion filed by the United States of America.
(Doc. 13).
2.

Benevides relies on the arguments presented in January 4, 2018 memorandum and

November 9, 2018 reply. (Doc. 3 and 12).
3.

Benevides supplements his reply with the attached declaration (Exhibit “A”),

which disputes assertions contained within the Government’s response and declaration by
Attorney Charles Greene. Benevides would note that he would not have entered into the plea
agreement had he known that he had no obligation to forfeit monies unrelated to the charged

1
App. 29

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 2 of 13 PageID 128

offenses or pay the government an unconstitutionally excessive fine. 1 Benevides would also
note that the Government’s response incorrectly argues that $44 million forfeited is related to or
derived from the bank fraud offenses. The argument is contrary to Judge Presnell’s ruling at
sentencing:
Furthermore, it appears and I find that from the evidence that of the money seized,
less than a million dollars has been traced to the fraudulent bank loans.
(Exhibit “B” at 4). Judge Presnell stated that seeking a set off using the forfeited money in this
case is like “comparing apples and oranges.” (Exhibit “B” at 3-4). The Government’s argument
is also contrary to its own representations at sentencing, “…only about $641,000 can be directly
traced.” (Exhibit “B” at 221) and the seized money could not be forfeited because it could not
prove by a preponderance of the evidence that the funds were bank fraud proceeds:
We could not forfeit those funds in this case because we could not prove by a
preponderance of the evidence that those funds were bank fraud proceeds.
Otherwise, we would have forfeited them in this case.
And I think Mr. Greene has somehow confused the money judgment, which is a
money judgment against the defendant for $44 million, which represents the
proceeds he obtained from the bank fraud somehow with the Ponzi scheme
money. And I just wanted the Court to be aware that these are two totally
separate pots of money.”
(Exhibit “B” at 270). Thus, as conceded by the Government at sentencing, the forfeited monies
at issue are “totally separate” from the charged offenses. The forfeited money resulted in an
excessive fine in violation of the Eight Amendment.
4.

Finally, Benevides submits as supplemental authority the United States Supreme

Court’s recent decision in Timbs v. Indiana, 17-1091, 2019 WL 691578 (February 20, 2019). In
Timbs, the Supreme Court held that the Eighth Amendment’s Excessive Fines Clause is an
1

The forfeited money was seized by the Government in a previous case, in 2009, which was
dismissed by the Government in 2010 because of false statements by government agents and
other witnesses. (Exhibit “A” at 2).
2
App. 30

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 3 of 13 PageID 129

incorporated protection applicable to the States. The Supreme Court unanimous decision speaks
to the importance of the protections provided by the Excessive Fines Clause:
For good reason, the protection against excessive fines has been a constant shield
throughout Anglo-American history: Exorbitant tolls undermine other
constitutional liberties. Excessive fines can be used, for example, to retaliate
against or chill the speech of political enemies, as the Stuarts' critics learned
several centuries ago. See Browning-Ferris, 492 U.S., at 267, 109 S.Ct. 2909.
Even absent a political motive, fines may be employed “in a measure out of
accord with the penal goals of retribution and deterrence,” for “fines are a source
of revenue,” while other forms of punishment “cost a State
money.” Harmelin v. Michigan, 501 U.S. 957, 979, n. 9, 111 S.Ct. 2680, 115
L.Ed.2d 836 (1991) (opinion of Scalia, J.) (“it makes sense to scrutinize
governmental action more closely when the State stands to benefit”). This concern
is scarcely hypothetical. See Brief for American Civil Liberties Union et al.
as Amici Curiae 7 (“Perhaps because they are politically easier to impose than
generally applicable taxes, state and local governments nationwide increasingly
depend heavily on fines and fees as a source of general revenue.”).
In short, the historical and logical case for concluding that the Fourteenth
Amendment incorporates the Excessive Fines Clause is overwhelming. Protection
against excessive punitive economic sanctions secured by the Clause is, to repeat,
both “fundamental to our scheme of ordered liberty” and “deeply rooted in this
Nation's history and tradition.” McDonald, 561 U.S., at 767, 130 S.Ct.
3020 (internal quotation marks omitted; emphasis deleted).
Id. at *5.
WHEREFORE, based on the arguments made in previous filings and those contained
herein, Benevides is entitled to relief. This Court should permit Benevides to withdraw his plea.
At the least, this Court should grant Benevides the opportunity to fully develop his claims at an
evidentiary hearing.
DATED this 13th day of March, 2019.

3
App. 31

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 4 of 13 PageID 130

Respectfully submitted,
/s/ Matthew R. McLain
Matthew R. McLain, Esquire
Florida Bar No. 98018
MCLAIN LAW, P.A.
2170 West State Road 434
Suite 216
Longwood, Florida 32779
(T) 407.792.3930
(F) 407.613.2757
Matthew@McLainLaw.com
Counsel for Petitioner
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been furnished to
opposing counsel via email on this 13th day of March 2019.
/s/ Matthew R. McLain
Matthew R. McLain, Esquire

4
App. 32

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 5 of 13 PageID 131
Exhibit "A"

App. 33

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 6 of 13 PageID 132

App. 34

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 7 of 13 PageID 133

App. 35

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 8 of 13 PageID 134

App. 36

Case 6:17-cv-01944-GAP-LRH Document 15 Filed 03/13/19 Page 9 of 13 PageID 135

App. 37

Case
Document 98
15 Filed
Filed 05/09/15
03/13/19 Page
Page 310ofof2813PageID
PageID1572
136
Case 6:17-cv-01944-GAP-LRH
6:13-cr-00234-GAP-KRS Document
3
Exhibit "B"
1

So the next order of business, I believe, is for me

2

to determine the appropriate guideline score, which I'm

3

prepared to do; and then after that, I'll entertain the

4

defendant's allocution as well as any concluding comments

5

that counsel feel that they would like to make in connection

6

with the sentencing.

7

With respect to the guideline score, there are two

8

issues in dispute:

9

amount; and whether Mr. Benevides should receive a two-level

10
11

First, the calculation of the loss

reduction for acceptance of responsibility.
With respect to the first issue, the loss amount,

12

the government and Probation have calculated that amount

13

based on the net loss to the banks who were the subject of

14

the bank fraud, and that amount is approximately $9 million,

15

certainly in excess of $7 million.

16

The defendant argues that from the $44 million

17

worth of fraudulent bank loans, for guideline scoring

18

purposes, we should give Mr. Benevides credit for the

19

approximate $40 million of forfeiture, thus resulting in a

20

loss of less than $7 million, in which event the loss amount

21

would be 18 rather than 20.

22

I find the defendant's calculation to be erroneous.

23

Essentially, the defendant wants to pay for apples with

24

oranges, so to speak, by using monies forfeited from other

25

accounts, and then credit that against the bank's loss
App. 38

Case
Document 98
15 Filed
Filed 05/09/15
03/13/19 Page
Page 411ofof2813PageID
PageID1573
137
Case 6:17-cv-01944-GAP-LRH
6:13-cr-00234-GAP-KRS Document
4

1
2

amount; and the two just don't go together.
Furthermore, it appears and I find from the

3

evidence that of the money seized, less than a million

4

dollars has been traced to the fraudulent bank loans.

5

So I find that a preponderance of the evidence

6

supports the government's and Probation's recommendation that

7

the loss amount for purposes of scoring is appropriate at the

8

20-level number.

9

The other issue in dispute was the acceptance of

10

responsibility; and in that regard, the government argues

11

that Mr. Benevides should not receive acceptance of

12

responsibility because of the lies or misunderstanding,

13

however you want to characterize the September 16th proffer,

14

at which time Mr. Benevides was confronted with the fact that

15

he was using other inmates' PIN numbers and return addresses

16

to communicate, apparently, with his girlfriend.

17

I have reviewed that matter thoroughly, and it

18

seems to me -- I believe that, first of all, under the Plea

19

Agreement, I think the government has the right and had the

20

right to contest acceptance of responsibility based on its

21

take on that proffer; but the fact that the government has

22

the right to contest that and has contested it vigorously

23

does not necessarily lead to the conclusion that I have to

24

deny Mr. Benevides credit for acceptance of responsibility.

25

I think at this point it's my call; and in looking
App. 39

Case
6:17-cv-01944-GAP-LRHDocument
Document
Filed
03/13/19Page
Page
12ofof272
13 PageID
Case
6:13-cr-00234-GAP-KRS
8515Filed
04/06/15
221
PageID 138
1472
221

1

for his arrest in this case about a few weeks after the

2

filing of that lawsuit, that would have been his attempt to

3

get this money from the government.

4

I think we've addressed somewhat the argument

5

concerning the seizure of the loans, money from the loans at

6

issue.

7

about 641,000 can be directly traced.

8

put into these accounts.

9

the money was replaced by Ponzi victim money during that

10

That's Government's Exhibit Number 21.

It's -- only

Other loan money was

That loan money was spent and then

time.

11

The vast majority of what the government seized,

12

Ponzi victim money, only about $641,000 could be directly

13

traced.

14

is conservative because, of course, this money was all

15

co-mingled.

It was co-mingled.

16

spent down.

It was replaced with Ponzi money.

And, Your Honor, that's conservative.

17

That $641,000

It was churned.

It was

So all we're saying is a mathematical calculation

18

that's pretty straight forward, and that is the most defense-

19

friendly, we would argue, number there.

20

There's some other issues that directly concern

21

the P.S.R. scores that I want to bring to the Court's

22

attention.

23

In the objections in the Sentencing Memorandum, it

24

says that paragraphs 19, 20, 21, 24 and 25 were not part of

25

the fraud.

I don't think there could be any question that
App. 40

Case
6:17-cv-01944-GAP-LRHDocument
Document
Filed
03/13/19Page
Page
13ofof272
13 PageID
Case
6:13-cr-00234-GAP-KRS
8515Filed
04/06/15
270
PageID 139
1521
270

1
2

THE COURT:
officer of the court.

3
4

I'll take your representation as an

MR. IRICK:

Your Honor, Ms. Andrejko has an issue

that she would like to address concerning forfeiture.

5

THE COURT:

6

MS. ANDREJKO:

Sure.
I'll be even quicker than these two,

7

Your Honor.

8

money judgment and the forfeitures that we did in the civil

9

forfeiture action.

10

I think Mr. Greene had confused the forfeiture

In the civil forfeiture action, there was about

11

$39.2 million that was forfeited because Mr. Benevides did

12

sign a consent to forfeiture.

13

that case was that they weren't proceeds of a Ponzi scheme,

14

just wire fraud offenses.

15

The basis of the forfeiture in

We could not forfeit those funds in this case

16

because we could not prove by a preponderance of the evidence

17

that those funds were bank fraud proceeds.

18

would have forfeited them in this case.

19

Otherwise, we

And I think Mr. Greene has somehow confused the

20

money judgment, which is a monetary judgment against the

21

defendant for $44 million, which represents the proceeds he

22

obtained from the bank fraud somehow with the Ponzi scheme

23

money.

24

separate pots of money.

25

And I just wanted the Court to be aware, two totally

We did agree in the Plea Agreement to allow the
App. 41

